                                           Testimony
Before the Subcommittee on Surface Transportation and
Merchant Marine Infrastructure, Safety, and Security,
Committee on Commerce, Science, and Transportation,
United States Senate



       Progress and Opportunities in Amtrak’s
        Implementation of the Passenger Rail
      Investment and Improvement Act of 2008


                            Statement of Ted Alves
                               Inspector General
                   National Railroad Passenger Corporation

                             Wednesday, September 14, 2011

                                      10:00 a.m. EDT
                                                                                                            1




G
         ood morning Chairman Lautenberg, Ranking Member Wicker, and Members
         of the Subcommittee. Thank you for the opportunity to discuss Amtrak’s
         efforts to provide higher quality, more cost-effective intercity rail
transportation services. The Passenger Rail Investment and Improvement Act of 2008
(PRIIA) reauthorized Amtrak and strengthened the U.S. passenger rail network by
tasking Amtrak, the Department of Transportation, the Federal Railroad
Administration, states, and others to improve operations and services. PRIIA also
assigned Amtrak a clear mission:

     “To provide efficient and effective intercity passenger rail mobility consisting of high-
     quality service that is trip-time competitive with other intercity travel options.”

The Act authorized nearly $10 billion for Fiscal Years (FY) 2009—2013 for Amtrak’s
operating costs and capital investments, including actions to bring the Northeast
Corridor to a “state-of-good-repair”1 and to pay down Amtrak’s long-term debt and
capital leases. While appropriation levels have increased since PRIIA was enacted, they
have been less than the authorized amounts.

The Act also contains provisions to help Amtrak operate more efficiently and to
improve services on existing routes. It assigned 29 sections to Amtrak: 15 required
Amtrak to act within a specified time frame, 10 suggested that Amtrak take or consider
some action, and four required or suggested that Amtrak respond to actions taken by
federal or state agencies. For example, the Act directed Amtrak to implement a modern
financial accounting and reporting system and develop a five-year financial plan.

As requested, my testimony today will address the preliminary results of our ongoing
audit of Amtrak’s progress and opportunities in completing provisions of PRIIA.2 Our
audit is assessing the progress Amtrak has made in implementing PRIIA by comparing
the Amtrak-assigned PRIIA provisions with the Company’s deliverables and responses.
We also evaluated the quality and effectiveness of Amtrak’s actions to implement four
selected sections: Restructuring Long-Term Debt and Capital Leases (Section 205); State
Supported Routes (Section 209); Long-Distance Routes (Section 210); and Passenger Train
Performance (Section 213). We judgmentally selected these provisions on the basis of


1 In July 2008, the Secretary of Transportation defined a state of good repair as “[a] condition in which the
existing physical assets, both individually and as a system, (a) are functioning as designed within their
useful lives, and (b) are sustained through regular maintenance and replacement programs; state of good
repair represents just one element of a comprehensive capital investment program that also addresses
system capacity and performance.”
2 Next month we plan to issue our final report on the progress that Amtrak has made in implementing

PRIIA.
                                                                                         2


their potential to improve performance and generate savings to Amtrak and the U.S.
government.

Before I address the preliminary results of that work, I want to thank you, Mr.
Chairman, and the Subcommittee, for the support that you have given me and my office
since I became Amtrak’s Inspector General in 2009. We will continue to build our
capacity to conduct effective, independent oversight of Amtrak’s operations and offer
recommendations for improvement.

I also want to acknowledge some of Amtrak’s key recent achievements. Amtrak is now
projecting that—for the first time ever—its annual ridership will exceed 30 million
passengers for FY 2011. This past June was the best June on record, with more than 2.6
million passengers for the month. Amtrak is also focused on improving its management
practices and financial performance, and is finalizing a new strategic plan to guide
Company efforts to improve its performance.



GOOD PROGRESS MADE IN ADDRESSING MOST
PROVISIONS; OTHERS IN THE PROCESS OF BEING MET
Our preliminary audit results show that Amtrak has embraced PRIIA and has made
good progress. As shown in figure 1, Amtrak has addressed 18 of the 29 requirements
and suggestions assigned to it. For example, Amtrak issued performance improvement
plans for its five worst performing long-distance routes and, with the Departments of
the Treasury and Transportation’s assistance, restructured some of its capital leases,
saving $152 million. Amtrak is working to respond to seven PRIIA sections. For
example, it is negotiating with states to implement a standardized cost-sharing
methodology for state-supported routes. Amtrak has not responded to one
suggestion—that it expand the use of special trains to reduce federal subsidies. As
noted in the figure, Amtrak has not responded to three sections because the triggering
events that are prerequisites to Amtrak’s responding have not occurred.
                                                                                                              3


     Figure 1. Amtrak’s Progress in Implementing PRIIA Provisions
                          (number of sections)




Note: Amtrak did not have to respond to an additional three sections because the triggering events that are
prerequisites to Amtrak‟s responding have not occurred.
Source: OIG analysis of Amtrak‟s deliverables and responses and PRIIA‟s requirements and suggestions



The status of each PRIIA provision and our ongoing review of selected provisions are
detailed in the attachment to this testimony. Based on that work, there are five issues I
want to bring to the Subcommittee’s attention that represent opportunities for savings
or improving the implementation of PRIIA provisions:

   Restructuring More Amtrak Debt Could Generate Savings. Section 205 authorized
   the Department of the Treasury, the Secretary of Transportation, and Amtrak to
   restructure outstanding Amtrak debt, if significant savings would accrue to Amtrak
   and the federal government. After working with the Secretary of Transportation and
   Amtrak, Treasury restructured 13 capital leases, saving $152 million ($91 million in
   present- value dollars).

   Opportunities for substantial savings still exist, but the authorization to restructure
   debt expired in October 2010. To illustrate, when Amtrak submitted its proposal to
   Treasury in May 2009, it identified another 39 leases with early buyout options that
   had the potential to save an additional $426 million ($305 million in present-value
   dollars). New legislative authority and updated savings estimates would be needed
                                                                                        4


to allow Amtrak and the Departments of the Treasury and Transportation to pursue
these savings.

Implementing Long-Distance Improvement Plans Faces Challenges. Section 210
required Amtrak to rank its 15 long-distance routes and develop performance
improvement plans, starting with the five worst-performing routes. Amtrak
completed the first five plans, which generally call for changes that would
significantly improve ridership and several financial metrics, but at the cost of
modestly increasing operating losses.

While Amtrak has begun implementing improvements that are under its control,
such as expanding seating, food-service options, and vacation packages, it has been
unable to implement the major initiatives. One reason is that major initiatives, such
as providing daily service instead of three-day-a-week service, require approval
from the host railroad. The host railroads informed Amtrak that their approval is
contingent upon its providing millions of dollars to improve their infrastructure.
Other impediments are the need for additional federal subsidies at a time of severe
budget constraints, and limited availability of passenger rail cars.

Essentially, Amtrak is not in a position to control many of the key improvement
initiatives it proposed. At this point, we believe Amtrak’s future improvement plans
should focus more on initiatives it can control and implement without requiring
additional federal subsidies or support from host railroads.

Developing a Process and Criteria to Support Using On-Time-Performance
Remedies. Section 213 authorizes Amtrak to request that the Surface Transportation
Board investigate substandard on-time performance of intercity passenger trains,
which the Act defines as less than 80 percent on-time for two consecutive quarters.
The Board is then to determine the causes of not meeting the on-time-performance
standard and, if the cause is the host railroad’s failure to provide preference to
Amtrak over freight transportation, the Board is authorized to award damages or
prescribe other relief that it deems appropriate.

Amtrak continues to experience on-time-performance rates for many long-distance
routes that fall below the PRIIA-defined standard. Amtrak has been collecting the
data necessary to determine if and when to request an investigation by the Board.
However, our work shows that Amtrak has not developed a structured process or
criteria to make this determination. Such a process is a prerequisite to determining if
and when to request an investigation, and would enhance the likelihood of success if
Amtrak pursues this option.
                                                                                       5

   Implementing Amtrak’s New Financial System is Key to Completing Several
   Remaining Provisions (Sections 203, 204, and 207). Section 203 required Amtrak to
   implement a modern financial accounting and reporting system by next month. This
   past June, Amtrak deployed its new system, but the system encountered problems
   and is not yet fully stable or operational.

   According to Amtrak officials, the previous financial reporting system lacked
   detailed financial data. However, the new system, being implemented under the
   Strategic Asset Management program, will provide detailed financial data once fully
   operational and stabilized. Consequently, we found that while Amtrak has prepared
   annual five-year financial plans as required by Section 204, the plans have not fully
   met the PRIIA financial reporting requirements. Also, Amtrak has not been able to
   meet Section 207 requirements that it maintain detailed data to measure the
   performance and service quality of intercity passenger trains, including cost
   recovery. According to a senior Finance Department official, when fully operational,
   the recently deployed system will help Amtrak meet these requirements.

   Determining Whether Additional Special Trains Could Help Reduce Federal
   Subsidies. Section 216 encouraged Amtrak to increase the operation of special trains
   to minimize the need for federal subsidies. This is the only PRIIA provision that
   Amtrak has not acted upon.

   Amtrak officials said that they did not consider this suggestion and have not
   increased the number of special trains. They stated that the Company does not have
   the resources, such as the rolling stock and manpower, dedicated for this type of
   service. Amtrak does, however, provide some special trains, although it accounts for
   a very small portion of revenue. Still, without adequate analysis to determine
   whether additional special trains could generate profits to help reduce federal
   subsidies, Amtrak may be missing an opportunity to generate additional profit by
   operating more special trains.



PRELIMINARY SUGGESTIONS
While we are still finalizing our audit report on Amtrak’s implementation of PRIIA, we
can provide our initial thoughts on how Amtrak and the Congress could take
advantage of the opportunities available under PRIIA to increase revenues, minimize
federal subsidies, and improve performance. Our preliminary suggestions are that
Amtrak should take action to
                                                                                       6


   update its information to support early buyouts of additional capital leases that
   would generate savings and provide those data to Congress for its consideration,

   focus future performance improvement plans on improvements that are less
   dependent upon host railroad approval or increased federal subsidies,

   develop a specific process and criteria to help determine how and when to request
   that the Surface Transportation Board investigate substandard on-time performance,
   and

   determine whether additional special trains could yield profits to help reduce
   federal subsidies.



POTENTIAL MATTER FOR CONGRESSIONAL
CONSIDERATION
Given that the authorization has expired, the Congress may wish to consider whether to
reauthorize the early buyout of those remaining capital leases that will generate saving
to the federal government.


Mr. Chairman, this concludes my statement, and I would be happy to answer any
questions that you or other Members of the Subcommittee may have.
                                                                                          7


Attachment


           PROGRESS AND OPPORTUNITIES FOR
      IMPROVING AMTRAK’S IMPLEMENTATION OF PRIIA
While Amtrak has addressed most of PRIIA’s requirements and suggestions assigned to
it, our ongoing work shows that opportunities remain for improving Amtrak’s
implementation of three provisions. Amtrak is in the process of addressing the
requirements in seven sections and has not responded to one suggestion. And there are
three sections in which the triggering events that are prerequisites to Amtrak’s
responding have not occurred.


Amtrak Has Addressed Most Requirements, Including Developing
Performance Improvement Plans for its Long-Distance Routes and a
Plan to Improve Onboard Service
The requirements specified in the nine PRIIA sections that Amtrak has addressed range
from such diverse topics as requiring Amtrak to report travel expenses for Board of
Directors members to producing technical specifications for the next generation of train
equipment. The actions Amtrak took to address these nine requirements are
summarized in table 1. We selected Section 210 from this group for detailed review and
identified opportunities to improve its implementation. This section has requirements
deadlines that are to be met over a series of years. The opportunities we identified relate
to future-year requirements and implementation issues.
                                                                                                   8


           Table 1. Nine PRIIA Requirements Addressed by Amtrak
 PRIIA
Section                      Title                                Action
                                          Amtrak reported all travel and reimbursable business
    202       Amtrak Board of Directors   travel expenses for each Board member to specific
                                          congressional committees.
                                          Amtrak ranked and issued performance improvement
                                          plans for its long-distance routes that addressed nine
                                          information categories specified in the Act. Amtrak has
    210a      Long-Distance Routes        also implemented some of the plans‟ initiatives, such
                                          as expanding seating and food-servicing capacities
                                          and adding certain vacation packages. More plans are
                                          required to be developed in the near future.
                                          Amtrak developed and implemented a plan to improve
              Onboard Service
    222                                   its onboard service pursuant to its performance
              Improvements
                                          metrics and standards established under PRIIA.
                                          Amtrak issued studies of six prior and current routes to
              Passenger Rail Service      determine whether to reinstate passenger rail service
    224
              Studies                     or a station stop, to expand service, or to reduce ticket
                                          prices.
              Plan for Restoration of     Amtrak issued a plan for restoring passenger rail
    226
              Service                     service between New Orleans and Sanford, Florida.
                                          Amtrak selected and obtained approval of a new rail
    304       Tunnel Project
                                          tunnel alignment in Baltimore.
                                          Amtrak established a Next-Generation Corridor
              Next-Generation Corridor    Equipment Pool Committee and produced the
    305
              Equipment Pool              technical specifications for the next-generation train
                                          equipment.
              Rail Cooperative Research   Amtrak nominated an executive to serve on the
    306
              Program                     advisory board, called the Rail Oversight Committee.
                                          Amtrak developed and implemented a strategic plan to
              Cross-Border Passenger
    406                                   facilitate expanded passenger rail service across the
              Rail Service
                                          Canadian border during the 2010 Olympic Games.
a
 Selected by OIG for detailed review
Source: OIG analysis of Amtrak data



Implementing Long-Distance Improvement Plans Faces Challenges (Section 210)

While Amtrak has ranked its 15 long-distance routes and submitted performance
improvement plans for the five worst-performing routes in FY 2010 as required, it has
not yet implemented the plans’ key initiatives. Amtrak has experienced difficulty
because it does not control all the factors required to achieve the key initiatives. These
                                                                                                        9


factors include host railroad approval3 and the availability of additional federal
operating subsidies. The host railroads responded that their approval is contingent
upon Amtrak’s providing millions of dollars to improve their infrastructure. Also, the
FY 2010 performance improvement plans are projected to improve many of the routes’
operating and financial performance metrics. For example, the projected increase in
ridership decreases the loss per passenger mile. However, the plans are projected to do
so at the cost of increasing the routes’ financial operating losses because the increase in
revenues is less than the increase in operating expenses.

Amtrak has put itself in a position in which it cannot control the factors needed to
achieve the key improvement initiatives that it proposed. If Amtrak continues to
maintain this approach in future improvement plans, versus focusing primarily on
initiatives that are not dependent upon host railroad approval or increased federal
subsidy, it is unlikely that Amtrak will make significant progress in improving
performance on these long-distance routes.


Amtrak Has Responded to Most Suggestions, Including Restructuring
Some Capital Leases and Obtaining Services from the General
Services Administration
The suggestions contained in nine PRIIA sections, which Amtrak has also responded to,
range from making agreements to restructure its capital leases to obtaining services
from the General Services Administration. The actions Amtrak took to address these
nine suggestions are summarized in table 2. As discussed after the table, we also
selected Sections 205 and 213 for detailed review. For Section 205, we identified
opportunities for savings by the restructuring of additional capital leases. Since the
restructuring authority has expired, it would need to be reauthorized. Further,
Amtrak’s capital lease data are outdated, and current savings estimates would be
needed. For Section 213, we identified opportunities to improve its implementation.




3A host railroad owns and controls the tracks that are used by Amtrak and other intercity passenger rail
operators. When an Amtrak train operates on tracks owned or operated by host railroads, the host
railroad’s dispatching center generally has control over the Amtrak train’s movement. An Amtrak
engineer must comply with the host railroad’s instructions, such as slowing down, stopping, or sitting on
a side track for a passing train.
                                                                                                 10


            Table 2. Nine PRIIA Suggestions Addressed by Amtrak
 PRIIA
Section                      Title                                Action
                                          The Department of the Treasury, in consultation with
                                          Amtrak and the Department of Transportation,
              Restructuring Long-Term
    205a                                  restructured 13 Amtrak capital leases. This
              Debt and Capital Leases
                                          authorization expired in 2010, 2 years after PRIIA‟s
                                          enactment.
                                          Amtrak complied with the Department of
              Establishment of Grant
    206                                   Transportation‟s newly-established grant application
              Process
                                          process.
                                          Amtrak is collecting and monitoring on-time-
                                          performance data for analytical purposes that could be
              Passenger Train             used if it decides to request that the Surface
    213a
              Performance                 Transportation Board investigate delays by a host
                                          railroad for substandard on-time performance due to
                                          “freight interference.”
                                          Amtrak obtained services, such as purchasing and
                                          travel card service, from the General Services
    218       General Amtrak Provisions   Administration. Through this service, it will avoid
                                          administrative processing costs compared with
                                          previous, paper-based procurement processes.
                                          Amtrak approved merit pay, geographic pay, and spot
    223       Incentive Pay               award programs for its employees, and proposed an
                                          incentive pay program to the Board of Directors.
              Capital Assistance for      Amtrak provided advice and assistance to states in
    301       Intercity Passenger Rail    their efforts to obtain capital assistance and grants for
              Service                     intercity passenger rail service.
                                          Amtrak provided advice and assistance to states in
    302       Congestion Grants
                                          their efforts to obtain congestion grants.
                                          Amtrak met with host freight railroads and commuter
              Routing Efficiency
    402                                   rail entities to develop feasible train schedules to
              Discussions with Amtrak
                                          satisfy all users‟ requirements.
                                          Amtrak applied for nearly $1.3 billion in infrastructure-
                                          improvement grants to bring next-generation, high-
              High-Speed Rail Corridor    speed rail to the Northeast Corridor. The Department
    501
              Program                     of Transportation awarded Amtrak nearly $450 million
                                          to upgrade support systems and tracks between stops
                                          in Pennsylvania and New Jersey.
a
 Selected by OIG for detailed review
Source: OIG analysis of Amtrak data
                                                                                                        11

Restructuring More Amtrak Debt Could Generate Savings (Section 205)

While the Department of the Treasury, in consultation with Amtrak and the
Department of Transportation, restructured 13 Amtrak capital leases, Amtrak still had
another 39 at the time of submission with early buyout options.4 With an investment of
$420 million, the estimated savings from the early buyout of the 13 leases was about
$152 million ($91 million in present-value dollars).5

Opportunities for substantial savings still exist, but the authorization to restructure debt
expired in October 2010. To illustrate, when Amtrak submitted its proposal to Treasury
in May 2009, it identified another 39 leases with early buyout options that also had the
potential to reduce federal costs. At the time of its proposal, paying off the remaining 39
capital leases could have resulted in an additional $426 million ($305 million in present-
value dollars) in net savings with a $638 million investment. New legislative authority
and updated savings estimates would be needed to allow Amtrak and the Departments
of the Treasury and Transportation to pursue these savings.


Developing a Process and Criteria to Support Using On-Time-Performance
Remedies (Section 213)

Amtrak continues to experience on-time-performance rates for many of its routes that
fall below PRIIA standards. While Section 213, Passenger Train Performance, authorizes
                          Surface Transportation Board                               -

         officials, they are in the process of developing information and supporting
documentation that could be used to make such a request. However, these officials do
not have a well-defined process or criteria for developing a request of this type.
Developing processes and criteria are a prerequisite to the Company’s determining
when to request an investigation. Further, sound processes and criteria enhance the
likelihood of the Board’s agreeing with Amtrak’s position.




4 Amtrak provided the Department of the Treasury with data that showed its capital leases by their early
buyout option dates. On April 30, 2009, Amtrak had 25 and 27 capital leases with early buyout options
during FYs 2010—2014 and FYs 2015—2019, respectively.
5 The $152 million savings is about $10 million less than that reported by the Department of the Treasury.
                                                                                                                    12


     Amtrak Is Addressing Some Requirements, Such as Implementing an
     Improved Financial Accounting System and a Standardized Cost-
     Sharing Methodology for State-Supported Routes
     Amtrak is also in the process of addressing seven PRIIA requirements, summarized in
     table 3. After the table, we discuss the implementation status and challenges to
     completion for the seven sections.


              Table 3. Seven PRIIA Sections Being Addressed by Amtrak
     PRIIA
    Section                 Title                                                Action
               Establishment of Improved
      203      Financial Accounting                Amtrak‟s previous financial accounting system did not
               System                              generate detailed data adequate to meet the requirements of
                                                   these three sections; the new system being implemented
               Development of Five-Year
      204                                          under the Strategic Asset Management program is not yet
               Financial Plan
                                                   stable or fully operational.
      207      Metrics and Standards
                                                   Amtrak is working to negotiate a cost-sharing methodology
                                                   with affected states for establishing and allocating operating
     209a      State-Supported Routes              and capital costs of intercity rail passenger service. PRIIA
                                                   requires that the methodology ensure equal treatment of all
                                                   affected states by October 16, 2013.
                                                   Amtrak issued the required plan, but used 2022 rather than
               Northeast Corridor ‘State-
      211                                          2018 as the deadline for returning the Northeast Corridor to
               of-Good-Repair’ Plan
                                                   a „state of good repair.‟ It is implementing the plan.
                                                   Amtrak must submit a report detailing the infrastructure
                                                   improvements needed to provide regular high-speed service
               Northeast Corridor
                                                   between the District of Columbia and New York City, and
      212      Infrastructure and
                                                   New York City and Boston. An interim report was submitted,
               Operations Improvements
                                                   but new data are emerging. Amtrak officials are deciding on
                                                   how best to transmit these new data.
               Study of Americans with
                                                   Amtrak issued the required study, but used 2015 rather than
               Disabilities Act-
                                                   2010 as the deadline for stations‟ compliance with the
      219      Compliance Requirements
                                                   Americans with Disabilities Act. It issued updated studies
               at Existing Intercity Rail
                                                   and will report quarterly on its progress.
               Stationsb
a
 Selected by OIG for detailed review
b
 In the next few weeks, we will issue a report on Amtrak‟s progress in complying with the requirements of the Americans
 with Disabilities Act of 1990.
Source: OIG analysis of Amtrak data
                                                                                                  13

Implementing Amtrak’s New Financial System Is Key to Completing Three
Provisions

Amtrak has deployed a new financial accounting and reporting system, being
implemented under the Strategic Asset Management program,6 but has encountered
problems; the system is not yet stable or fully operational. As a result, according to
Amtrak officials, the Company lacks the detailed financial information it needs to
respond to three of the remaining PRIIA provisions. According to a senior Finance
Department official, when fully stable and operational, the recently deployed system
will help Amtrak meet these requirements.

    Establishment of Improved Financial Accounting System (Section 203). This
    section required Amtrak to implement a modern financial accounting and reporting
    system and report annually on the allocation of all revenues and costs to each route,
    line of business, and major activity. Amtrak officials stated that due to the
    inadequacies of the previous financial reporting system and the fact that its new
    system, being implemented under the Strategic Asset Management program, has not
    been stabilized or made fully operational, Amtrak’s annual reports do not yet
    include these costs. According to a senior Finance Department official, Amtrak
    should be able to include the missing data categories in future reports, once the
    program is fully operational.

    Amtrak implemented its new financial management system under the Strategic
    Asset Management program’s first segment (Release 1a) in June 2011. We issued two
    audit reports this year assessing the challenges Amtrak faced during the program’s
    development and implementation.7 In January, we reported that the design of
    automated controls to mitigate financial risks was generally sound. However, we
    found gaps in the design of the controls that did not fully mitigate the financial and
    operational risks. These gaps put Amtrak at risk of not fully realizing the program’s
    full potential benefits. In particular, a lack of adequate controls can lead to
    inaccurate financial reporting, vulnerability to fraud, and inefficient business
    operations. In June, we identified several gaps in the program’s testing and
    contingency plans. Amtrak agreed with our recommendations and stated it is
    addressing them.

6 In 2008, Amtrak launched a company-wide, multi-year effort called the Strategic Asset Management
program. The program’s goal is to improve key operational, financial, supply chain, and human
resources processes by replacing or enhancing many inefficient manual and automated systems with new
systems and business processes.
7 Strategic Asset Management Program Controls Design Is Generally Sound, But Improvements Can Be Made

(OIG Audit Report 105-2010, January 14, 2011) and Strategic Asset Management Program: Further Actions
Should Be Taken To Reduce Business Disruption Risk (OIG Audit Report 001-2011, June 2, 2011).
                                                                                     14

Development of Five-Year Financial Plan (Section 204). This section required
Amtrak to issue an annual budget and business plan, along with a five-year financial
plan. Amtrak has issued the required annual budgets, business plans, and five-year
financial plans. These plans provide Congress with significantly more information
than was provided before PRIIA.

However, Amtrak’s two financial plans addressed most but not all of the
information required by PRIIA. For example, the five-year plans did not address
prior fiscal year and projected labor productivity statistics on a route. According to a
senior Finance Department official, route-basis reports are not available because
Amtrak does not directly collect an employee count for each route, so employee
count projections per route would be highly speculative. A senior Finance
Department official stated that the Strategic Asset Management program should be
able to generate these financial data.

The two financial plans also did not address the requirement to report on Amtrak’s
ability to efficiently recruit, retain, and manage its workforce, although this
information is available within the Company.

Metrics and Standards (Section 207). This section required Amtrak and the Federal
Railroad Administration, in consultation with the Surface Transportation Board,
host railroads, states, Amtrak’s labor organizations, and rail passenger associations,
to develop metrics and minimum standards for measuring the performance and
service quality of intercity passenger train service, including cost recovery. It also
required Amtrak to provide the Federal Railroad Administration with reasonable
access to the necessary data to publish quarterly reports on the performance and
service quality of intercity passenger train operations.

Amtrak and the Federal Railroad Administration published draft metrics and
standards for public comment in March 2009; the final metrics and standards
became effective in May 2010. However, Amtrak has not been able to provide the
Federal Railroad Administration with data for some of the financial metrics, such as
the percentage of short-term avoidable operating costs covered by passenger-related
revenues and the long-term avoidable operating loss per passenger-mile, because it
lacks the detailed information. According to senior Amtrak officials, the Company
should be able to provide the missing metrics once the Strategic Asset Management
program is fully operational.
                                                                                                     15

State-Supported Routes (Section 209)

This section required Amtrak—in consultation with the Department of Transportation,
relevant state governors, and the District of Columbia mayor—to develop and
implement a standardized, nationwide methodology for establishing and allocating
operating and capital costs of state-supported rail passenger service. It also required
that the methodology ensure equal treatment of all affected states by October 16, 2013.

Amtrak officials stated that negotiating cost-sharing agreements has been difficult—
especially during economic conditions in which resources are scarce. However, Amtrak
has made progress toward reaching a negotiated agreement. According to Amtrak, the
Company and the state working group8 reached an agreement on a standardized
methodology this past May. Further, an Amtrak briefing states that it issued a final
draft package to all state partners last month for their approval.

According to Amtrak officials, since PRIIA did not specify the amount that the states’
share should represent, negotiations between the Company and its state partners never
considered a fully allocated cost-sharing methodology. Amtrak reasoned that requiring
such a methodology could lead some states to reduce or cancel some state-supported
routes if they considered their costs to be too great. Amtrak documents show that if
some state-supported services were reduced or cancelled, it would not be able to reduce
shared costs sufficiently to avoid increases in operating deficits and increased shared
costs for all remaining services. While Amtrak estimates that the proposed
methodology will increase annual state contributions by $127 million in FY 2014, a fully
allocated cost-sharing methodology could increase state contributions by approximately
another $100 million per year.


Northeast Corridor State-of-Good-Repair Plan (Section 211)

This section required Amtrak, in consultation with the Secretary of Transportation, the
corridor states, and the District of Columbia, to prepare a capital spending plan to
return the Northeast Corridor to a state of good repair by the end of FY 2018.

Amtrak issued the required spending plan in April 2009. However, it established an
end date for returning the Northeast Corridor main line to a state of good repair that
was later than the one specified by PRIIA. Amtrak officials concluded that this task
could not be accomplished within that time frame without adversely affecting the level

8The States for Passenger Rail and the American Association of State Highway and Transportation
Officials established the state working group to work with Amtrak in the development of a cost-sharing
methodology.
                                                                                                         16


of service. They decided, instead, that the task could be accomplished by 2022 without
an adverse effect on service. Amtrak used the 2022 date in preparing the required plan,
which it is now implementing.


Northeast Corridor Infrastructure and Operations Improvements (Section 212)

This section required Amtrak to submit a report detailing the infrastructure and
equipment improvements necessary to provide regular high-speed service between the
District of Columbia and New York City, and between New York City and Boston.
Specifically, it requires the report to identify the infrastructure and equipment
improvements necessary to provide regular high-speed service between (1) the District
of Columbia and New York City in 2 hours and 30 minutes, and (2) New York City and
Boston in 3 hours and 15 minutes.

In October 2009, Amtrak issued an interim assessment of improving Northeast Corridor
trip times,9 but also recognized that further refinements were likely, due to ongoing
actions to improve operations.10 At the same time, Amtrak reported that it would
update and expand upon the interim assessment with (1) completion of the ongoing
cooperative activity, (2) consultation with the Northeast Corridor Infrastructure and
Operations Advisory Commission, and (3) federally-required environmental analysis.
According to a Policy and Development Department official, Amtrak is currently in the
process of deciding whether to incorporate the additional data in an updated report or
into a comprehensive plan to enhance the corridor infrastructure and operations.


Study of Compliance Requirements at Existing Intercity Rail Stations (Section
219)

This section required Amtrak—in consultation with station owners and other
railroads—to evaluate the improvements necessary to make the stations it serves
accessible to and usable by individuals with disabilities. It specified that the evaluation
include a detailed plan and schedule for bringing all applicable stations into compliance
by the 1990 Americans with Disabilities Act’s statutory deadline of 2010.11


9 Amtrak, An Interim Assessment of Achieving Improved Trip Times on the Northeast Corridor (October 21,
2009).
10 In September 2010, Amtrak issued A Vision for High-Speed Rail in the Northeast Corridor, which presents

Amtrak’s initial look at how high-speed rail service could be successfully developed in the Northeast
Corridor.
11 In the next few weeks, we will report on the progress Amtrak has made in complying with the

Americans with Disabilities Act’s requirements.
                                                                                                        17


Amtrak reported to Congress on its progress to comply with the Act in February 2009,
and updated it in October 2010 and August 2011. However, Amtrak used a later
deadline than the one specified by PRIIA because it reported that it could not meet the
legislative time frame for achieving compliance. The Company initially used September
30, 2015, as the goal for meeting this requirement. In the 2011 update, Amtrak reported
that it will work to achieve the Act’s compliance at all stations for which it has
responsibility by the end of 2015. It also noted that progress has been slower than
anticipated because of the challenges associated with management of a program of this
size and complexity. Further, Amtrak expects that coordination with and cooperation
from other entities (who own the stations or land) will continue to be a major challenge.
It pledged in the update to report quarterly on the progress it is making.


Amtrak Did Not Respond to the Suggestion in the Section on Special
Trains
Section 216, Special Passenger Trains, encouraged Amtrak to increase the operation of
special trains12 funded by or in partnership with private-sector operators through
competitive contracting to minimize the need for federal subsidies. Although Amtrak
operates special trains, officials of the Marketing and Product Development Department
said they did not consider the suggestion and have not increased the number of special
trains. Amtrak officials stated that the Company does not often operate special trains
because it does not have the resources, such as the rolling stock and manpower,
dedicated for this type of service. Consequently, special trains have traditionally
generated a small portion of Amtrak’s revenues. Still, without adequate analysis to
determine whether additional special trains could generate profits that, in turn, could
help reduce the amount of federal subsidies needed, Amtrak may be missing a potential
opportunity under PRIIA to generate additional profits by operating more special
trains.


Amtrak Has Not Yet Been Required to React to Sections on a
Decision-Making Methodology and Changes in Amtrak-Operated
Routes
Amtrak has not had to react to three sections because the events that are a prerequisite
to requiring an Amtrak response have not occurred. Specifically:

12A special train is one that does not appear on Amtrak's timetable since it is operated on an "as-needed”
basis following a contractual agreement between Amtrak and the party requesting the service. An
example is a passenger train added for a sporting event, such as the Super Bowl.
                                                                                    18


             Federal Railroad Administration
                to determine which intercity passenger routes and services to
provide                     Methodologies for Amtrak Route and Service Planning
Decisions, the precondition for Amtrak to respond has not been met.

                    -                                                         Employee
Transition Assistance, the precondition for Amtrak to certify that it made a reasonable
attempt to reassign affected employees has not been met.

Because no state has selected an entity other than Amtrak to operate an intercity
passenger train route                     Access to Amtrak Equipment and Services the
precondition for Amtrak to develop an access agreement to its equipment and
services has not been met.
